<html>
<title> - U.S. POLICY TOWARD SUDAN AND SOUTH SUDAN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                U.S. POLICY TOWARD SUDAN AND SOUTH SUDAN

=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2014

                               __________

                           Serial No. 113-178

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
86-870                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Booth, Special Envoy to Sudan and South 
  Sudan, U.S. Department of State................................     6
Mr. John Prendergast, co-founder, Enough Project.................    25
Walid Phares, Ph.D., co-secretary general, Transatlantic 
  Legislative Group on Counter Terrorism.........................    35
Mr. Adotei Akwei, managing director for government relations, 
  Amnesty International USA......................................    56

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Booth: Prepared statement...................    10
Mr. John Prendergast: Prepared statement.........................    30
Walid Phares, Ph.D.: Prepared statement..........................    39
Mr. Adotei Akwei: Prepared statement.............................    59

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Material submitted for the record...............    74


                     U.S. POLICY TOWARD SUDAN AND 
                              SOUTH SUDAN

                              ----------                              


                      WEDNESDAY, FEBRUARY 26, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:34 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order and good 
afternoon. I, first of all, want to apologize to all, including 
our distinguished witnesses. We did have a series of votes and, 
unfortunately, you can never plan for that. So I do apologize.
    Good afternoon. Today's hearing is very important, and not 
only because the United States Government has been involved in 
Sudan and its various crises for the past three decades.
    Many of us first became interested in Sudan in the 1980s 
because of the persistent reports of modern-day slavery in 
which northern Arabs enslaved African southerners.
    I would point out parenthetically I held my first hearing 
when I was chairman of the subcommittee that dealt with human 
rights after we took control in 1994 on slavery in Sudan and we 
had freed slaves come and testify and it was a very telling 
experience to hear them tell of the atrocities that they had 
suffered.
    My office also more recently helped to bring one of the 
unfortunate people who had been enslaved to America for medical 
treatment after he was freed, and his story affected me deeply 
once again.
    Ker Deng had been kidnapped into slavery while still a 
child, and while he was an adolescent the man who held him in 
bondage rubbed peppers in his eyes, blinded him, and later 
abandoned him.
    Ker is studying here in the United States thanks to his 
benefactor, Ellen Ratner, and is awaiting a second operation to 
help him recover at least some of his eyesight. The question 
always is posed how many other Sudanese will never have that 
opportunity or even achieve their freedom. Ker's mother has 
never been freed from bondage.
    We began supporting southern Sudanese efforts to end the 
oppression from the North in the mid-1990s. In 2005, we 
helped--the United States did--both North and South achieve the 
Comprehensive Peace Agreement to end this long civil war and 
provide the steps for a mutually beneficial peace and 
productive coexistence.
    Unfortunately, the rebellion in the Darfur region 
distracted from efforts to fulfill that agreement. Khartoum's 
alliance with the Janjaweed Arabs resulted in mass killings and 
displacement in Darfur.
    An estimated 1.9 million people were displaced, more than 
240,000 people were forced into neighboring Chad, and an 
estimated 450,000 people--nobody knows for sure what the real 
number is but it is extraordinarily high--were killed.
    At the time, Congress insisted that this was a genocide. 
Eventually, the Bush administration concurred, but the United 
Nations declined to go so far in their terminology, calling 
what happened in Darfur crimes against humanity.
    A peace agreement between the main rebel force in Darfur 
and the Government of Sudan was signed in May 2006 but it did 
not last.
    In fact, no sustained agreement has been reached between 
the government and Darfur rebel groups partly because these 
groups have continued to split and form offshoots but also 
because the Khartoum Government has not appeared willing to 
resolve the Darfur situation constructively.
    In June 2005, the International Criminal Court initiated an 
investigation that resulted in arrest warrants for Sudanese 
President Omar al-Bashir and three other government officials 
and militia leaders.
    None of these warrants have been served, none of the four 
have been taken into custody and the Government of Sudan has 
refused to cooperate with the ICC. Meanwhile, the CPA remained 
unimplemented.
    In January 2011, South Sudan, which had been a semi-
autonomous region of the country since the signing of the CPA, 
voted in a referendum on whether to remain part of Sudan or 
become independent.
    Having been marginalized and mistreated for decades, it was 
not surprising that southern Sudanese voted overwhelmingly, at 
the level of 98.8 percent, to become an independent nation.
    On July 9, 2011, South Sudan became the world's newest 
nation. However, these unimplemented elements of the CPA would 
bedevil the new country from its birth. A referendum in the 
disputed Abyei region and consultations on the status of 
Sudan's Southern Kordofan and Blue Nile States were never 
completed.
    In May 2011, Sudanese Armed Forces assumed control of the 
towns in Abyei, quickly forcing at least 40,000 residents to 
flee. Within weeks, fighting spread to Southern Kordofan and 
Blue Nile States as Khartoum sought to crush the Sudan People's 
Liberation Army-North, which had fought with southerners in the 
north-south civil war.
    Northern attacks on residents in those areas continued 
unabated. Last year, Sudan and South Sudan engaged in a 
conflict over oil supplies from South Sudan involving 
allegations that Khartoum was undercounting the level of oil 
flow to cheat South Sudan, as well as South Sudan's seizure of 
the oil town of Heglig.
    Again, this dispute was largely the result of unresolved 
issues from the CPA. South Sudan continues to be engaged in a 
conflict that began last December, despite a cessation of 
hostilities agreement.
    Thousands have been killed. Tens of thousands have been 
displaced. Exact figures are constantly shifting because this 
conflict continues. I will soon introduce a resolution offering 
a sequenced approach to reaching a lasting solution to this 
newest crisis.
    This conflict also is the result of too little attention 
paid to the warning signs because of a preoccupation with one 
of the many other crises in the two Sudans.
    Over the last three decades, I and other members of the 
subcommittee and subcommittee chairs have held numerous, 
numerous hearings on Sudan and, of course, we have all traveled 
there.
    Mr. Wolf, who is joining us from the Appropriations 
Committee, was there back in 1989, I think even before that, 
but certainly in 1989 and has been a steadfast voice and a 
power in trying to bring relief to that troubled region.
    In fact, too often, however, each crisis is seen as a 
problem unto itself when these things break out, unrelated to 
other issues, then we move on to other things, it seems, even 
notwithstanding the good work of our Special Envoy.
    In fact, successive administrations and Congresses, 
advocacy groups, and humanitarian organizations have focused so 
much on individual crises and issues that no one has created a 
panoramic view which shows us all these individual crises and 
how they interrelate with each other.
    This stovepiping of government policy and public attention 
and focus and prioritization has meant that long-term solutions 
have been neglected while short-term eruptions have had to be 
dealt with.
    In reality, the two Sudans are inexorably linked and no 
crisis in either can be resolved successfully without taking 
into account the entire Sudan-South Sudan panorama.
    We must end this cycle of myopic policy formulation based 
on the crisis of the moment and adopt a longer-term, holistic 
vision of what the best interests of the people of Sudan and 
South Sudan demand--indeed, what would be in the best interests 
of the entire region.
    As we learned in our subcommittee hearing on the Sahel 
crisis last May, Islamic extremists have their sights set on 
making inroads wherever there is conflict, across the belt of 
Central Africa, stretching from Senegal to Sudan and beyond. 
Continuing unrest in the two Sudans only serves to provide 
training grounds or bases of operation for terrorists.
    Hardened ethnic conflicts can spread to long-term enmity 
that no peace agreement alone can resolve. Hopefully, this will 
not be the case in South Sudan, but that conflict is headed in 
that ominous direction.
    Two years ago, I held a meeting in my office with 
representatives from Sudan's Nubian, Darfuri, Beja, and Nuba 
communities, who all believe that Khartoum is engaged in a 
long-term effort to exterminate non-Arab Sudanese.
    Have we missed such a pernicious campaign while hopping 
from one crisis to another as each appeared? The purpose of 
today's hearing is to examine current U.S. policy toward Sudan 
and South Sudan to see how we can unify our policy in order to 
more effectively end long-term running tragedies that appear to 
get worse despite all the attention to which we pay them.
    This involves more than what the Department of State and 
other executive agencies do and even what Congress can do. 
Advocacy and humanitarian organizations also must join the 
government in seeing the forest and not just the trees, so to 
speak.
    And let me also say the importance of engaging the faith 
community remains a very important component if we are to 
bring, or help bring, a lasting and sustainable peace to that 
troubled part of the world.
    I would like to now yield to my friend and colleague, Ms. 
Bass, for opening comments.
    Ms. Bass. Thank you, Mr. Chairman, for today's hearing and 
as always thank you for your leadership on this issue.
    I want to thank our witnesses today. I had the pleasure of 
working with the U.S. Special Envoy before he was the Special 
Envoy but when he was the Ambassador to Ethiopia. So it is a 
pleasure to see you here at the committee today.
    The U.S. engagements in the Sudan, government officials in 
both diplomacy and development have faced tremendous challenges 
in devising holistic and unified approaches to grappling with 
each nation's concerns.
    These include, of course, issues of governance, human 
rights, international justice and the seemingly intractable 
conflicts that continue with tragic consequences in the Sudan 
and South Sudan.
    The context of the post-9/11 world heightened these 
challenges as our Government increasingly focused on regional 
stability in East Africa and the counterterrorism cooperation 
of regional governments including the Government of Sudan.
    In dealing with these varied obstacles, U.S. foreign policy 
efforts have often been crafted to address specific issues 
which in some instances raises the question of our approach and 
my question as to whether or not it has actually been 
problematic.
    For example, focusing on the status of Abyei, the conflicts 
in Darfur and the Blue Nile, often at the expense of broader 
comprehensive approaches which seek redress of the root causes 
of conflict in South Sudan and in Sudan. So addressing the 
crisis individually as opposed to looking at both nations 
together.
    The separation of Sudan and South Sudan--these root causes 
continue to stoke internal conflict, threaten regional 
stability, produce hundreds of thousands of refugees and IDPs, 
and bring about massive loss of life.
    I hope today from the witnesses that we can learn the 
lessons of the past and formulate new ways to work through our 
Special Envoy and his international counterparts as well as 
regional bodies such as IGAD and the AU to find sustainable 
solutions which bring peace, stability and economic growth to 
Sudan and South Sudan.
    I am, of course, committed to continuing to work toward 
these ends and look forward to engaging my colleagues here in 
Washington and on the continent to make this a reality.
    Mr. Smith. Thank you very much.
    I would like to now yield to Chairman Frank Wolf.
    Mr. Wolf. Thank you, Mr. Chairman, and I want to second 
what Ms. Bass said about you. I appreciate your good efforts 
and I think you have probably done more on this issue, on most 
issues than any other Member of the Congress since I have been 
here.
    I am not a member of the subcommittee and I have an 
appointment at 3 o'clock but I want to put on the record a 
question that I hope that someone would follow up on.
    On December 30th, Ambassador Booth, I wrote Secretary Kerry 
urging that the administration, and at that time it was at a 
crisis point--December 30th--and now we are ready to go into 
March--urging that the administration enlist the aid of former 
President George W. Bush and his team at the Bush Library whose 
administration was absolutely pivotal in birthing South Sudan.
    I was there in 2005 when Colin Powell and John Danforth 
were with President Bush where they appointed the Special Envoy 
that led to the new South Sudan. I noted that South Sudanese 
President Salva Kiir's trademark black cowboy hat was in fact a 
gift from President Bush.
    President Bush and his team forged lasting relationships 
with Salva Kiir and the South Sudanese leadership and would be 
well positioned with the full blessing, obviously, working 
under you, working under Secretary Kerry, working under the 
President to engage in diplomacy and rebuilding the efforts at 
this critical time.
    I have had conversations with senior administration 
officials over the last 2 months and yet nothing has happened. 
I would urge you to take this request back to the Secretary. 
Such an overture would send an important message to the 
suffering people of South Sudan.
    And the closing paragraph of the letter dated December 30, 
2013, to Secretary Kerry said, ``It's been said that politics 
stops at the water's edge.'' While perhaps not always the case, 
I would hope that this administration, despite its past 
differences with the Bush administration, would recognize the 
wisdom of inviting former President Bush and key members of his 
team who forged a lasting relationship with the leadership of 
South Sudan to engage in high-level diplomacy with the various 
actors involved in the current crisis and to do so with the 
full support and blessing of the U.S. State Department and, of 
course, the White House.
    Such an overture would send a clear message to the people 
of the fledgling nation that they have not been abandoned. And 
also, President Clinton was used in Haiti. President Obama took 
President Bush to Mandela's funeral. President Bush has fallen 
in love with Africa, HIV/AIDS, PEPFAR.
    So I would ask you, and maybe you ought to talk to Mr. 
Smith at the next vote what your answer is, tell us will the 
administration, will you, will Secretary Kerry, will the 
President do this, and I think this picture of President Bush 
with President Obama in the White House saying we are going to 
engage and use all the resources, working with people like John 
Prendergast and so many others, all the resources I think would 
make a tremendous difference.
    I appreciate Mr. Smith having this hearing. Yield back.
    Mr. Smith. Thank you very much, Chairman Wolf.
    And before I do introduce Ambassador Booth, I would just 
echo his concern. When I read the letter in the op-ed that Mr. 
Wolf wrote, it made a very compelling case.
    It would really, I think, send a message to the key players 
including Salva Kiir, who greatly esteems President George W. 
Bush, and that kind of working side by side with you and 
Secretary Kerry and, of course, President Obama would show a 
unity on the part of the United States but also on the ground. 
Senator Danforth worked wonders and we all credit him with 
pulling an amazing feat with the CPA.
    So perhaps, you know, in your opening comments you could 
address the feasibility of that and I think it could act as a 
tourniquet to this ever-worsening crisis.
    Now, if I could introduce the Ambassador, our U.S. Special 
Envoy to Sudan and South Sudan, Ambassador Donald Booth, who 
was appointed Special Envoy August 28, 2013.
    He previously served as Ambassador to Ethiopia, Zambia, and 
Liberia. Prior to that, he was director of the Office of 
Technical and Specialized Agencies at the Department of State's 
Bureau of International Organization Affairs.
    Ambassador Booth has also served as director of the Office 
of West African Affairs, deputy director of the Office of 
Southern African Affairs, economic counselor in Athens and 
division chief for Bilateral Trade Affairs at the U.S. 
Department of State.
    Mr. Ambassador.

STATEMENT OF THE HONORABLE DONALD BOOTH, SPECIAL ENVOY TO SUDAN 
           AND SOUTH SUDAN, U.S. DEPARTMENT OF STATE

    Mr. Booth. Chairman Smith and Ranking Member Bass, members 
of the committee, Chairman Wolf, I want to thank you very much 
for the opportunity to testify before you here today. I am 
going to summarize what has been submitted for the record.
    This hearing comes at a tumultuous time for both Sudan and 
South Sudan. South Sudan is mired in a devastating internal 
conflict that has already caused widespread death and 
destruction, and threatens to unravel the social fabric of that 
young nation.
    With the interests of other regional neighbors so heavily 
in play, any increase in tensions has the potential to foment 
broader regional instability. To the north, Sudan continues to 
respond to the grievances of marginalized groups with violence, 
particularly in Darfur and the ``two areas'' of Southern 
Kordofan and Blue Nile States where government forces have 
engaged in indiscriminate aerial bombardments.
    Linked by geography and resources, Sudan and South Sudan's 
interdependence could be a source of stability, but recent 
steps toward resolving bilateral issues have been overshadowed 
by the conflict in South Sudan.
    As someone who has been in the region almost continuously 
since December 21, I can assure you that the U.S. Government 
has and will continue to be fully engaged in support of the 
President's goals of two countries at peace internally and with 
each other and with the region.
    We stand ready to help both Sudan and South Sudan build a 
peaceful and prosperous future in which all their citizens are 
respected, protected and have a say in the governance of their 
respective countries.
    On South Sudan, 3 years after its historic referendum for 
independence, South Sudan is again riven by conflict--not with 
Khartoum, however, but with itself. This is devastating for all 
of use who hoped to see it escape the terrible cycles of 
violence that marked its past.
    The cessation of hostilities signed by the parties on 
January 23rd was a critical step. But, unfortunately, both 
parties have continued to violate this agreement.
    A true cessation of hostilities is our most pressing 
priority and we are providing significant support to the 
Intergovernmental Authority on Development, IGAD, the 
monitoring and verification mechanism that they lead which will 
monitor the cessation of hostilities and identify violators.
    We are also deeply focused on moving the parties to a 
meaningful and inclusive political discussion of the root 
causes of the problem. Looking back, the government attempted 
to contain intercommunal violence without fully committing to 
the hard work of addressing its causes.
    On top of this, the Government of South Sudan progressively 
reduced the space for political competition within and outside 
the ruling party as well as for the independent media and civil 
society.
    IGAD mediators have proposed meaningful political dialogue 
between the two sides with a broad representation of others in 
South Sudanese society.
    Their premise, one with which I agree, is that a return to 
business as usual with a quick fix and political accommodation 
for the main protagonists will not restore peace.
    Peace will require a process of national reconciliation and 
a transparent mechanism for accountability for gross violations 
of human rights committed during the conflict. The African 
Union is establishing a commission of inquiry that will help 
deliver both justice and reconciliation.
    Finally, we are pressing all parties in South Sudan to 
permit immediate and unconditional humanitarian access to the 
hundreds of thousands of South Sudanese who are the real 
victims of this violence.
    The humanitarian crisis will only intensify in the coming 
months with the coming of the rainy season, and to help the 
United States has already committed close to an additional $60 
million in lifesaving humanitarian assistance and we have sent 
our disaster assistance team into South Sudan to assess what, 
in addition, needs to be done.
    Now, on Sudan and South Sudan relations, I would like to 
note that in the months just prior to the conflict there were 
signs of an improving relationship between Juba and Khartoum 
and it appears that Sudan has so far played a constructive role 
with the IGAD-led mediation.
    But greater involvement by Sudan could cause friction with 
other regional actors as well as opposing sides in South Sudan 
and we will continue to press for restraint.
    There are still unresolved issues between the two nations 
that cannot be allowed to fester. They need to implement the 
September 2012 agreements and also endeavor to resolve the 
final status of Abyei.
    Turning to Sudan, as I mentioned, the country continues to 
suffer from internal conflicts. Economic and social tensions 
last fall was a result of cuts to subsidies and resulted in the 
largest protest seen under the National Congress Party's rule.
    Unfortunately, the government responded with a violent 
crackdown on the protestors, resulting in hundreds of deaths 
and injuries. In South Kordofan and Blue Nile States, despite 
the resumption of talks between the SPLM-North and the 
Government of Sudan earlier this month, fighting continues.
    And I will continue to work with both parties as well as 
the umbrella opposition group of the Sudan Revolutionary Front 
to urge them to achieve a cessation of hostility and 
humanitarian access.
    In Darfur, peace remains elusive as violence and insecurity 
have increased. Last year alone, more than \1/2\ million people 
were newly displaced primarily as a result of intertribal 
conflicts and lawlessness.
    The United States has provided $7 billion to date in 
humanitarian, transition, and reconstruction assistance to the 
people of Darfur and we continue to press the Sudanese 
Government to allow greater or open humanitarian access and to 
engage with all parties in Darfur for a comprehensive political 
solution.
    Against the backdrop of continued conflict and repressive 
response to public demonstrations in September, we do take note 
of President Bashir's speech of January 27 in which he called 
for an inclusive process to redraft the constitution, a process 
that would include both armed and nonarmed opposition groups 
and that would address issues of peace, economic development, 
political reform, and a dialogue about Sudanese identity.
    The world will be watching Sudan carefully to gauge the 
seriousness of this initiative which, if truly holistic, 
inclusive and comprehensive, offers an opportunity to address 
the underlying causes of Sudan's tragic history of war between 
its center and its periphery.
    Along with other senior U.S. Government officials, I have 
endeavored to coordinate international engagement with key 
partners such as China, the United Kingdom, Norway, the African 
Union, the European Union, Ethiopia, Egypt, Qatar, and Russia, 
among others.
    While it is critical that we continue engagement, 
improvement of our relations with the Government of Sudan will 
continue to be predicated on genuine and sustained improvements 
in how Sudan treats its citizens and adheres to its 
international obligations.
    So in conclusion, despite the horrendous conflicts that 
have continued and erupted over the past months, opportunities 
for peace do exist. The Government of Sudan can make the choice 
to undertake a truly comprehensive and inclusive constitutional 
process and national dialogue on the country's future.
    Similarly, the Government of South Sudan has a crucial 
opening to establish an inclusive peaceful nation 
representative of all.
    Mr. Chairman, I thank you for this opportunity and for your 
continued commitment to the peoples of Sudan and South Sudan 
and I look forward to your questions.
    And if I could, Mr. Chairman, just to answer the question 
posed by Chairman Wolf, the administration indeed did take on 
board that recommendation and, indeed, even before, early in 
the stages of the crisis before the 30th of December, had 
reached out to previous administrations--the previous 
Presidents and members of their senior leadership and had tried 
to engage them.
    And some of them did, indeed, intervene, make calls out to 
the Government of South Sudan to try to put an end to the 
conflict, to try to call for an early cessation of hostilities 
and to sit down at the peace table. So I would be happy to go 
into that further if you would like.
    [The prepared statement of Mr. Booth follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. I would appreciate that. Did President Bush make 
a phone call? And I think, again, what Mr. Wolf is suggesting 
and I think, you know, sometimes thinking outside the box while 
working inside the box as robustly as possible helps yield a 
result.
    The Danforth team, obviously, Bush's team, brings another 
layer of people who were there when many of these things were 
hammered out. So did George Bush make a call but, more 
importantly, will you engage even more thoroughly?
    Mr. Booth. Well, I will certainly take the engagement of 
former President Bush back to the Secretary for further 
consideration. It was former Secretary Rice who tried to engage 
President Kiir. Former President Carter did as well.
    Mr. Smith. Okay. Let me just ask a couple of questions. 
Again, if you could get back to us, you know, perhaps by early 
next week. Time is of the essence.
    I mean, there was an article in Voice of America a day ago 
about Malakal deserted, destroyed and new South Sudan fighting. 
The article points out, and I am sure you know this, that Oxfam 
has pulled out and said that the streets were littered with 
bodies.
    And the comment was made in the article fighting resumed in 
Malakal, the capital of the largest oil-producing state in 
South Sudan, weeks after the two sides in the conflict signed a 
cessation of hostilities agreement.
    Certainly, it hasn't reached that town and many, many 
others. So, again, the sense of urgency you might want to 
comment on this because I know many of our witnesses do call 
and make very persuasive argument on the need, and you said it 
as well, of being able to get humanitarian workers in.
    One, people are being killed, absolutely innocent women, 
men and children who happen to be Sudanese or visitors there, 
perhaps even some Americans. But now we have Oxfam and others 
pulling out. So if you could maybe speak to that now, Mr. 
Ambassador.
    Mr. Booth. Thank you, Mr. Chairman.
    Clearly, both sides have not respected the cessation of 
hostilities agreement that they signed. Fighting continued 
after that agreement was signed in late January in Addis.
    There were attacks on the towns of Leer in Unity State and 
other areas, in Gadiang in Jonglei State by the government 
forces, and then as you rightly mentioned, last week was the 
attack on Malakal by the opposition forces.
    One of the critical things to make the cessation of 
hostilities a reality is to deploy the monitoring and 
verification mechanism that IGAD had foreseen in the cessation 
of hostilities agreement and we have been working day and night 
with them.
    I have secunded a member of my staff to work with the IGAD 
mediation to get that team established. They have been into 
South Sudan. They have visited numerous sites where the teams 
will operate out of. They have verified that it is indeed 
possible for those teams to operate.
    We are working on a memorandum of understanding with the 
U.N. Mission in South Sudan to provide some support to that 
team, and just this week money that we had made available was 
put on a contract to provide the services and support needed 
for those teams to deploy.
    So I understand the headquarters team will deploy this week 
to Juba and as the other staff are brought on board from IGAD 
member states and international partners the monitoring and 
verification teams will be out there.
    Now, these are monitoring teams and they will not be able 
to enforce the cessation of hostility. The enforcement will 
really come primarily from the political clout of the region--
the countries in the region that both parties in South Sudan 
will need to live with and deal with.
    And so the premise of the monitoring and verification 
mechanism is that once good information is available the 
Presidents of the countries in the region will be able to 
intervene to ensure that those violations stop.
    Mr. Smith. You have said that ominous signs in South Sudan 
have been visible for quite some time. Matter of fact, on 
February 7th in your remarks before the Africa Center for 
Strategic Studies you suggested that, including internal 
political tensions, shrinking political space, and 
intercommunal tensions.
    In light of the U.S. commitment to the world's newest 
country, what can we do differently now to address these issues 
that we have not done previously and what new direction is 
likely to succeed at this point?
    Mr. Booth. Mr. Chairman, I think the--as you mentioned, 
there were signs that there was closing political space in the 
country. We and others in the international community engaged 
with the government to try to reverse that, to slow that down.
    I personally was in Juba in early December and was very 
active in lobbying the government to modify an NGO bill that 
they were on the verge of passing, trying to keep this space 
open. I also spoke out about the need for space for press 
freedom at that time.
    Now, clearly, the issue is not sort of what more might have 
been done but what can we do to avoid a repetition of this, and 
this is why the IGAD mediators with our full support and 
encouragement have proposed that there be a very broad dialogue 
going forward, that the solution to the crisis in South Sudan 
is not going to be one that is a stitch up between a couple of 
politicians to decide who gets what share of power but, rather, 
something that is going to involve the civil society of South 
Sudan, the religious leaders, the traditional leaders, the 
business community, women, youth, as well as the political 
class, as well as the political parties.
    In order to look at the issues of how South Sudan should be 
governed, there is already a constitutional process underway 
that needs to be revised and invigorated. That is one of the 
proposals from the IGAD mediation.
    There are also proposals that the--this discussion needs to 
look at some of the contributing causes to the current conflict 
such as the security sector. The SPLA became a military force 
which continued to grow after independence as more and more 
militias were incorporated.
    How can the security sector be reformed so that you don't 
have an army that at the first sign of trouble will fracture, 
as the SPLA did on the night of the 15th of December and 
subsequently?
    Issues of financial accountability and transparency, 
allocation of resources that the government does have and how 
do they actually get out to benefit more broadly the people of 
South Sudan--those are all issues that have been put on the 
table by IGAD.
    We fully support that and we believe that by addressing all 
of those issues with a broad range of stakeholders from South 
Sudan to reach a consensus, at least a sufficient consensus 
among those stakeholders on the way forward will be what will 
address these ongoing issues.
    There will also be a need, frankly, for an accountability 
and a reconciliation process. People need to know what was 
done. Those most responsible for gross violations of human 
rights will need to face justice.
    But there will above all need to be a reconciliation 
process among the communities. Some things that have been an 
issue in South Sudan are tensions between ethnic groups. These 
are issues that we were working on before the conflict.
    We spent a lot of time, particularly over this past summer, 
in dealing with the crisis in Jonglei State which was a 
conflict there between ethnic groups and we will continue to 
try to work on this issue of reconciliation.
    Mr. Smith. Mr. Ambassador, are faith leaders actively 
involved in the reconciliation part in the pursuit of peace? 
Are they included in the discussions?
    Mr. Booth. Most definitely. In fact, there were a number of 
the religious leaders from South Sudan who came to Addis Ababa 
to talk with the mediators, to talk with the delegations that 
were there.
    When I was in Juba in late December, I met with several of 
the religious leaders and was probing with them for their views 
on how they might be able to contribute.
    The religious community has long been a respected pillar of 
South Sudanese society and I think definitely needs to part of 
any ongoing efforts at both reconciliation but also at the 
issue--addressing the issues of governance and the 
constitution.
    Mr. Smith. Mr. Akwei from Amnesty International points out 
that Darfur is awash in small arms and he says that the U.N. 
Security Council needs to immediately expand the current U.N. 
arms embargo to cover the whole of Sudan in order to stop 
military-related supplies reaching all parties of the conflict 
of Darfur.
    Is that something that you are looking at, that you think 
should be done?
    Mr. Booth. Thank you, Mr. Chairman.
    It is, indeed, something that we think should be done and 
it is something that we have proposed in New York in the 
Security Council. We have, unfortunately, not had cooperation 
from some of the other permanent members of the Security 
Council and so we have not been able to succeed in expanding 
that.
    But we believe that the arming of so many people in Darfur 
is, indeed, what is contributing now not just to the organized 
fighting between tribes but also the general lawlessness in the 
area.
    Mr. Smith. Among his many suggestions and recommendations, 
Mr. Prendergast points out that Eritrea needs to be 
investigated ``for its support of the opposition forces.'' Are 
arms flowing from Eritrea?
    Mr. Booth. We have certainly heard those allegations and we 
are trying to verify whether there is any reality to them.
    They have been brought to our attention by a number of 
governments in the region. There is certainly a concern about 
regionalization of this conflict, and it is not just Eritrea 
but it is the potential for this conflict, as I mentioned in my 
opening remarks, to spread because of the fundamental interest 
that the neighboring countries have in the region. And so we 
are working very hard to try to get this conflict contained 
without the intervention of outside forces.
    Mr. Smith. Dr. Phares, in his testimony, suggests that 
there needs to be Presidential statements on the crisis and I 
have read both of those that have been posted on the White 
House Web site, and they were good but one was two paragraphs 
and one was four.
    Not much length to it, and length doesn't necessarily 
convey lack of substance but it suggested to me that more could 
have been there.
    But he asked for that but he also says that there should be 
an invitation to representatives from both sides or factions, I 
should say, to come to Washington for consultations with the 
goal of finding a definitive solution to the divisions.
    Sometimes when you take a group out of Addis, at least out 
of Sudan, but sometimes when you come even a further distance 
it has the consequence of sharpening the mind.
    I mean, we have done that with so many players from so many 
different countries over the years, including Northern Ireland. 
When the disparate parties there would meet here, all of a 
sudden things were improved.
    Is that something you are looking at?
    Mr. Booth. We believe the IGAD mediation, which is being 
led by former Foreign Minister Seyoum Mesfin as well as General 
Sumbeiywo who led the CPA process, are doing an outstanding 
job. We have been fully supportive of them and we have been 
working very closely with them.
    There is a danger in opening multiple channels of 
negotiation and that you open then the parties up to forum 
shopping. And so we, at this point, are committed to supporting 
the IGAD mediation and we will continue to do so as long as it 
continues to make progress and has the trust of both parties.
    Mr. Smith. Well, frankly, I am not suggesting multiple 
venues. I mean, he is recommending and it sounded like it had 
some merit to it, that--the idea of bringing people here, 
perhaps to the White House, you know, where things could be--
the ball could be moved further down the field.
    Mr. Booth. Well, we are certainly open to all ideas and we 
can take that under advisement.
    Mr. Smith. Appreciate that. Could you also tell me when the 
last time you briefed the President personally on matters 
relating--was it in the Oval Office or was it by phone and when 
was that?
    Mr. Booth. I believe the date was the 24th of January and 
it was in the Oval Office.
    Mr. Smith. And is it your recommendation that the President 
should call the players including Salva Kiir?
    Mr. Booth. We have had many calls to Salva Kiir as well as 
to Riek Machar by senior administration officials and we are 
calibrating when we need to use which official to try to move 
the issue at the particular time.
    So that is something that is certainly on the table and 
that will be used when we consider that that would be the best 
way forward at that time to move the--move us off of a sticking 
point or otherwise breaking a log jam.
    Mr. Smith. But, again, the fact that Oxfam has vacated one 
of the larger cities, things are not moving, certainly not in 
the direction as fast as we would like.
    I don't think we wear out our welcome if the President 
makes that phone call. I really don't. You know, maybe multiple 
phone calls would be advisable. So please take that back, if 
you would.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I want to begin by thanking you and Ranking Member Bass for 
holding today's hearing on this very important issue and thank 
our witness for being here.
    For several years, U.S. foreign policy focused on 
addressing tensions and instability in the Sudan and South 
Sudan and today we remain concerned about the civility of these 
countries and the quality of life of their citizens.
    As we all know, South Sudan is engulfed in conflict and 
terrible violence and the United States Government continues 
and must continue to work to achieve a peaceful solution and in 
particular I believe we must ensure that U.N. peacekeepers in 
South Sudan who are working to protect people seeking refuge 
are provided with the resources they need.
    I think our approach should be to craft a foreign policy 
that focuses on Sudan and South Sudan and promotes democratic 
values including respect for human rights, the necessity of 
enfranchisement and equal protection under the law.
    Religious tensions, ethnic tensions, and economic tensions 
all underscore the need for a comprehensive approach that can 
take these into account and I thank you, Ambassador Booth, for 
the work that you are doing.
    I would like you to focus, if you would, on the 
humanitarian relief efforts in South Sudan and to what extent 
you see them being constrained by the evacuation of foreign aid 
workers, whether there are pro-government or anti-government 
forces that are seeking to actually restrict relief efforts or 
humanitarian air access, and what is the status of the refugees 
that have taken refuge in U.N. compounds--are their most urgent 
needs being met and what can we do to be of assistance?
    And finally, if you would speak about the capacity of the 
U.N. peacekeepers in South Sudan, their ability to protect 
those civilians sheltering at U.N. bases and those beyond.
    I asked this question last time during the last hearing, 
and that is due to the legislative cap on peacekeeping 
contributions that is currently in place and is set to remain 
in place unless Congress acts, the U.S. did not pay its full 
assessed rate for any of the peacekeeping missions, and for 
UNMISS alone the shortfall amounted to about $10 million.
    This funding shortage, I believe, continues to deny 
critical resources to the missions and it means top troop-
contributing countries like Bangladesh and Ghana are not fully 
reimbursed for their services.
    And so would you talk a little bit about what it means for 
this funding to not be in place, what impact it has on the 
mission and what the long-term responsibilities that we have in 
terms of our supporting U.N. peacekeeping work?
    Mr. Booth. Well, thank you, Congressman.
    You had a lot of questions there but let me try to see if I 
can answer most of them.
    UNMISS, I think, should be credited with savings tens of 
thousands of lives during this current crisis in South Sudan. 
They have given refuge in their own compounds to close to 
80,000 South Sudanese.
    Now, that is just a fraction of the number of South 
Sudanese who have been displaced internally in the country but 
they were able to offer protection. Not foolproof protection in 
all cases, as some of their compounds actually were in the path 
of fighting that moved back and forth, particularly in the town 
of Bor.
    And so the administration and other members of the Security 
Council voted in late December to increase the troop ceiling 
and the number of foreign police with the UNMISS mission, 
almost doubling the size of the mission to give it capacity.
    Despite efforts to recruit those forces very quickly, 
unfortunately, I have to report that to date only several 
hundred have actually arrived in country. More are on the way, 
but it does take a number of the troop-contributing countries, 
those countries willing to contribute, time to organize their 
forces, provide the appropriate equipment and get them 
transported to theater.
    I think the top priorities of the U.N. Mission in South 
Sudan are three, really. One is the protection of civilians 
including the protection of civilians in their own compounds. 
Two is to monitor the human rights situation and report on it, 
and there was an UNMISS interim human rights report that was 
just issued I believe the end of last week. And then three is 
that of assisting the rest of the U.N. community there and 
others in ensuring humanitarian access to those in need.
    The U.N. I think has estimated that humanitarian need in 
the country will be about $1.27 billion this year of which only 
about $225 million has been pledged to date. So there, clearly, 
is, if the U.N. estimates are accurate and we have no reason to 
challenge them at this point, there will be a funding shortfall 
in providing humanitarian assistance.
    Our Embassy has been drawn down to de minimis staffing but 
the first people that we sent in in addition to de minimis 
staff we have there was our disaster assistance team--our DART 
team--and they went in and they spent over a week working with 
the U.N. and others to come up with a plan and an assessment of 
what needs to be done and how to get it done.
    In terms of the actual access on the ground, there have 
been places and instances where the U.N. Mission has not been 
able to fly in at particular times. We understand that the 
cooperation now from both the opposition and the government is 
improving though it is not foolproof yet in trying to move 
humanitarian assistance.
    There is an urgency to all of this as South Sudan will soon 
enter its rainy season and if particularly bulky items--heavy 
items such as food cannot be prepositioned in time, this will 
result in either having to deliver this in a much more 
expensive manner by air or that people will be on exceedingly 
short rations.
    So there is a huge humanitarian need that needs to be met 
there. We are working with the U.N. and other humanitarian 
agencies to try to meet that, and actually the humanitarian 
access was one component of the cessation of hostilities 
agreement and one that we indeed will hold both the government 
and the opposition to their word on that to allow humanitarian 
assistance.
    Mr. Cicilline. Would you just spend a moment and speak 
about the U.N. peacekeeping, the funding and our failure to pay 
the assessed amount, and what impact that is having on both the 
participation of other countries and our position in that part 
of the world?
    Mr. Booth. Well, I am not the expert on the U.N. 
peacekeeping budget. I would really ask that I pass your 
question to our international organization bureau that we work 
very closely with, obviously, and perhaps have them come back 
to you on that impact as they are the ones who are working 
through the Department of Peacekeeping Operations in New York 
and would have a better sense of what the impact of the 
shortfall of U.S. funding is.
    Mr. Cicilline. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Smith. Thank you.
    Mr. Ambassador, thank you very much for your testimony.
    Mr. Booth. Thank you very much, Mr. Chairman. A pleasure.
    Mr. Smith. I would like to now introduce our second panel, 
beginning first with Mr. John Prendergast, who is a human 
rights activist, best-selling author and co-founder of the 
Enough Project, an initiative to end genocide and crimes 
against humanity.
    He has worked for the National Security Council under 
President Clinton, the State Department, and in several 
congressional offices.
    He has also worked for the National Intelligence Council, 
UNICEF, Human Rights Watch, the International Crisis Group and 
the U.S. Institute of Peace.
    He has helped fund schools in Darfurian refugee camps and 
have launched the Satellite Sentinel Project with actor and 
activist George Clooney. Mr. Prendergast has worked for peace 
in Africa for more than 25 years and has frequently appeared 
before our subcommittee to provide his expert advice.
    We will then hear from Dr. Walid Phares, who is co-
secretary general of the Transatlantic Legislative Group on 
Counter Terrorism, a position he has held since 2008. He has 
also been an advisor to the U.S. House of Representatives 
Caucus on Counter Terrorism since 2007.
    He is an expert on conflicts and terrorism, and lectures on 
campuses nationwide as well as internationally. He has 
testified before and conducts briefings in Congress, the 
European Parliament and the European Commission, the U.N. 
Security Council, the U.S. Department of State, and other 
foreign ministries worldwide. Again, for 25 years he has 
written books and articles on various developments in Sudan and 
South Sudan.
    We will then hear from Adotei Akwei who rejoined Amnesty 
International as the managing director for government 
relations. He was a senior policy advisor for CARE where he 
also worked as regional advocacy advisor in Asia.
    Before joining CARE, Mr. Akwei worked with Amnesty 
International for 11 years. He also served as Africa director 
for the Lawyers Committee for Human Rights, now Human Rights 
First.
    Prior to that, he served as research and human rights 
director for the American Committee on Africa and the Africa 
Fund.
    Mr. Prendergast, please proceed.

 STATEMENT OF MR. JOHN PRENDERGAST, CO-FOUNDER, ENOUGH PROJECT

    Mr. Prendergast. Thank you so much, Mr. Chairman. Thanks 
for the chance to address this subcommittee and for your 
steadfast concern for the people of Africa for many years.
    I just returned last week from South Sudan and I saw the 
aftermath of some horrific atrocities perpetrated by both sides 
in this conflict. I also in 2013 went to the Darfur-Chad border 
as well as into the Nuba Mountains in rebel-held territory in 
the Nuba Mountains and met with the survivors of equally 
horrific atrocities.
    I think Adotei will focus on the human rights issues, 
rightly so, as Amnesty, so I would like to spend my time just 
zeroing in on possible solutions.
    I think the U.S. needs a real peace strategy for both 
Sudans, something that is much more comprehensive and proactive 
than the existing approach that we have taken, and I think I 
would focus today on just four areas--on peace, democracy, 
accountability, and then the leverage the U.S. needs to build 
in order to make progress on those first three.
    So the first element of a peace strategy for both countries 
would be--I hate to use this term because of its overuse--but a 
diplomatic surge. When the pre-referendum crisis was unfolding, 
the U.S. dramatically upgraded its diplomatic strategy.
    We had the President, the Secretary of State, the National 
Security Advisor and the U.S. Ambassador to the U.N. all 
working the issue. We had three envoys, effectively. We had 
former Senator Kerry, who was chairman of the SFRC, we had 
Princeton Lyman, who then became the Special Envoy, and we had 
Scott Gration, who was the Special Envoy. You know, we were all 
over it, a full court press, and it paid off. This alliance 
that was forged included China and other countries to pressure 
Khartoum into allowing the referendum to occur, and averted 
what many of us worried would be a catastrophic conflict.
    The same could be said for the Bush administration's 
efforts during the 2002 to 2005 period, which Congressman Wolf 
was referring to and you were supporting, in that the full 
court press the administration undertook with a very senior 
envoy supported by a number of senior Foreign Service Officers, 
one of whom is in the room right now, Jeff Millington, who has 
experience doing these things. I mean, that model works so we 
need to do it. We need to use it.
    The escalating crises in both of those countries today I 
think demand a similar diplomatic surge. One Special Envoy, no 
matter how capable Ambassador Booth is, pales in comparison, I 
think, to the current diplomatic requirements.
    The wars in both countries are so complicated they require 
their own envoys, and the interplay between these two conflicts 
in the broader region demands a deeper political team upon 
which these two envoys could rely.
    So either a second Special Envoy or this kind of approach 
that has been discussed already today where a senior political 
figure, whether it is a former President like President Bush or 
a former Secretary of State like Secretary Rice, Secretary 
Albright, Secretary Clinton, these are all people who have a 
very deep history and concern with what is happening in Sudan 
and a direct participation in the history of the events when 
they served publicly.
    And so I think that dispatching somebody like Senator 
Danforth back in those days, that could make a big difference. 
Who exactly it is let us talk about it but, definitely, let us 
put it on the table with something that could really make a 
difference.
    In South Sudan, I think--all right. Let us start with 
Sudan, and Congresswoman Bass said it very clearly in your 
opening remarks, you know, we need--there needs to be one 
unified peace process for Sudan.
    There are all these--we have talked about it for so long--
there are all these truncated stovepiped approaches, to Darfur 
over here to--there is Nuba Mountains there to eastern Sudan 
to--there are all these different initiatives, precisely what 
Khartoum wants--divide and conquer, divide and conquer.
    We can't play into that and, again, I don't think that an 
envoy, again, no matter how capable Don Booth is, there is not 
time to be able to work the--develop the international 
coalition to pressure Khartoum to allow for a comprehensive 
peace process to occur.
    I think we understand it needs to happen. Well, how do you 
make it happen? You have to operationalize the diplomatic 
strategy to do it.
    In South Sudan, one of the things I definitely wanted to 
note is that well over half the countries in the world that are 
in war go back to war once they have a peace deal. So it is not 
crazy and unusual that this is happening in South Sudan. It is 
a tragedy, but it is somewhat predictable.
    South Sudan has its chance now to reboot and I think the 
odds for developing a real sustainable track is in what 
everyone has said today, which is there needs to be an 
inclusive peace process.
    We have all these civil society groups and you mentioned 
religious leaders, the political parties, youth groups, women. 
They all have to be included. We agree on that, but you have to 
operationalize the diplomatic strategy to make that happen.
    We have to be much more proactive in pushing and building 
the countries that have leverage with South Sudan and the 
rebels to encourage that they allow that to happen.
    We can talk all day about the importance of this but if 
those guys block it they won't do it and will sit there with, 
again, a little closed room with the people with the biggest 
guns deciding the future of the country and probably leading to 
another war.
    So I think, again, a huge push on something like that from 
whether it is former President Bush, whether it is Secretary 
Condoleezza Rice, Albright, Clinton, or someone with stature 
can make a strong push.
    The second element I would put forward for a comprehensive 
peace strategy would be democracy promotion. DG Program--
Democracy and Governance Programs globally are going down.
    This is, obviously, a bigger issue than what we have today. 
But in Sudan and in South Sudan, both countries, the need to 
get in there and support and be in solidarity with the civil 
society groups and the opposition parties and independent 
voices, the media, those that are pushing for solutions, is 
more, I think, vital than ever.
    And so I think figuring out a way that we can get some more 
resources and support to the independent sector in both 
countries, and I know that USAID grapples with this and I 
think, again, with Congress' support there could be more done 
in that regard.
    The third element of a peace strategy is accountability, 
justice and reconciliation. You know, I think, again, who 
disagrees? We have a problem. In Sudan and South Sudan, no one 
has ever been held accountable for any crime--war crime or 
crime against humanity they have ever committed.
    At least there are a few people who have been issued arrest 
warrants in The Hague. That is a beginning. But I think what, 
and particularly now with South Sudan exploding as it has with 
these terrible crimes being committed by both parties, ensuring 
that there is some kind of a mechanism, we suggest in our 
testimony a hybrid court or a mixed court, you know, where--
when a justice system of a country, especially an embryonic 
country 2\1/2\ years old, is dwarfed by the needs, well, some 
international support--still South Sudanese-led--it is not a 
violation of sovereignty, it is support for sovereignty--to 
build up the capacity of the judicial sector, to try the worst 
cases of these crimes, I think, would be terribly important.
    And on the flip side of that, a lot of Africans and people 
who work on justice around the world talk about restorative 
justice and, you know, in South Sudan, for example, when 
somebody kills someone or when someone steals something in a 
community, the restorative judicial mechanism is compensation.
    So negotiating a form of compensation in this regard where 
there is truth telling about who did what to whom and then 
there is some compensation involved in addition to the more 
formal accountable measures is the kind of thing you can see 
underlying a solution going forward.
    And then on Sudan itself, another push, whatever the 
politics are in the ICC--the push for holding those people that 
have already been indicted to--holding them accountable. 
President Bashir's visiting the Congo today--that is a 
signatory to the ICC. Of course, he will skate in and skate out 
with no problem. Redoubling our efforts--again, another reason 
why understanding one lonely envoy is not enough for the 
enormity of these crises.
    The fourth and final element of a peace strategy is 
building the leverage so that we can get some of these things 
done. We often say in a lot of these crises, well, the U.S., we 
don't have any leverage anymore--we don't have any influence 
anymore. I just don't buy that at all, and I think what we 
suggest here in--is a number of things.
    First and foremost, you always got to really, really 
examine what are the incentives and the pressures--what are the 
sticks and the carrots that can be put forward in this kind of 
an environment.
    Creating real penalties--when I say creating I mean they 
don't exist. You have to create them. This requires imagination 
and it requires some real discussion about what would actually 
hurt some of these folks that are undermining peace or 
committing terrible human rights atrocities.
    We have to look at this, and so developing those sticks and 
carrots, and we can talk a little bit about what they might be. 
Working with other countries that have significant leverage. 
You know, let us be honest about it. China has more leverage 
than anyone.
    China has dipped in and out of the diplomatic efforts and 
the peace efforts in somewhat mildly encouraging ways. In other 
words, not like it was a few years ago where they wouldn't even 
engage at all--they wouldn't even--that is an internal matter, 
it is not our business.
    Their economic stake is so at risk now because of what is 
happening that they have begun to, out of pure self-interest, 
get involved in the--in supporting negotiations. Very 
generally, I would like to see a senior person from Washington 
go to Beijing and talk to China about how we can work together 
on this in limited ways.
    We have maybe the same end goal, which is peace. What our 
interests are may be wildly different. Doesn't matter. Let us 
figure out how we can work together.
    Going in with China with the parties in both Sudan and 
South Sudan on particular things--even if it is just 
humanitarian issues, that would make a difference. That would 
bring leverage. That would build leverage that we don't have 
now or that we are lacking now.
    Targeted sanctions is something that I think we need to use 
more liberally in this case for war crimes and crimes against 
humanity and folks that are undermining the peace process.
    So the African Union has already put targeted sanctions on 
the table for South Sudan. That is encouraging. We need to get 
behind that very strongly as well and build, again, a coalition 
of countries that are willing to--so it is not just the U.S. 
standing alone.
    Build the coalition who is willing to exact a price for 
those that would commit terrible atrocities to achieve their 
political objectives and likely the U.N. Security Council once 
again will not be amenable to this because of China and Russia. 
Again, this is where it is.
    So we go around it, build the coalition that is willing to 
do this kind of stuff and push it and jam some of these actors 
who are doing--undertaking the kind of actions that they are.
    Sudan has a particular vulnerability, I think. Given the 
loss of revenue from oil, not just the post-2011 loss but now 
even more because of the revenues declining even further, they 
have turned to gold.
    Last year in 2013, they committed terrible ethnic cleansing 
crimes in Darfur--north Darfur in order to consolidate control 
or to gain control over the exports of gold from Darfur.
    At the very least, the U.S. should lead a multilateral 
effort to target the Khartoum Government's lifeline by 
labelling Sudan's gold as conflict-affected and work with the 
U.N. sanctions committee to see if there are particular people 
that are involved in that gold trade that can be sanctioned to 
hurt their business interests, to hurt their economic interest, 
and then definitely working multilaterally to ensure that any 
offer of debt relief, which many countries are constantly 
bringing up the possibility of providing debt relief to Sudan 
even in the midst of all the terrible atrocities that they are 
committing, making that debt relief contingent on an end to the 
wars inside and transformative political reform.
    Thanks so much for the time that you have given me.
    [The prepared statement of Mr. Prendergast follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much.
    Dr. Phares.

    STATEMENT OF WALID PHARES, PH.D., CO-SECRETARY GENERAL, 
      TRANSATLANTIC LEGISLATIVE GROUP ON COUNTER TERRORISM

    Mr. Phares. Chairman Smith, Madam Ranking Member 
Congresswoman Bass, thank you very much for this invitation. It 
is a pleasure and honor to be speaking to your subcommittee 
about it. I would like to ask the chairman to add my written 
testimony to the record.
    Mr. Smith. Without objection, so ordered, and anything else 
you would like to add to the record--you know, additional 
papers and what not.
    Mr. Phares. Thank you.
    Mr. Chairman, over the past 35 years from 1979 until this 
year I have been monitoring, analyzing, and publishing about 
Sudan, north and south, and about the ethnic conflicts taking 
place inside Sudan.
    The first work was in 1979. That was in the first war, 
after the first war of Sudan before the second one and my last 
work will appear in a month in a new book, ``The Lost Spring'' 
in 2014.
    Based on my research, what I would like to address today is 
a global strategic assessment rather than going into the actual 
case by case. I know my colleagues have addressed human rights. 
We will also address the humanitarian issue.
    I divide my findings in three--1) dealing with Sudan, i.e. 
northern Sudan, the Republic of Sudan, 2) about South Sudan 
and, 3) a few suggestions, as you have requested, on how to 
adapt U.S. foreign policy to these two crises.
    On Sudan, as I show in map number two--if you have the 
opportunity to show it, at least I will show the chairman--what 
is very important for the American public and also our 
bureaucracy and our Government to understand is that the map of 
Sudan is one of a central government, a central regime which 
has an ideology, at war or at conflict with five other ethnic 
communities that happen to be African minorities in Sudan.
    If we don't understand that concept, it will be very 
difficult to deal--to jump from one area to the other area 
without understanding that there is a grand design, a grand 
architecture of the regime trying to implement it on the ground 
and in a very dramatic way.
    In Sudan, you have the center, of course, which is Arab-
Sudanese. The regime in that center has an ideology. It is a 
jihadi regime. It has been involved in the past in the--as of 
1989 and, of course, throughout the 1990s in supporting 
jihadist organizations around the world.
    Dr. Turabi, but also the regime of Mr. Bashir, have 
convened conferences in Khartoum in 1992, 1993 with many 
organizations, some of which are on our terrorist list and the 
terrorist list of other countries as well.
    The problem is that you have four issues this regime is 
involved with. Number one, it is at war with five ethnic 
communities. One is Darfur that my colleagues have mentioned. 
Despite all the agreements on Darfur, the regime is still 
involved in arming forces and factions against the population 
of Darfur.
    The labeling of these are factions fighting against each 
other is not as much accurate as the regime arming the neo-
Janjaweed because you had the Janjaweed in the past and now the 
new forces with a different name to stop the implementation of 
human rights or protection of Darfur.
    Darfur still is a open wound. Darfur is as large as Syria, 
though in Syria you had 120,000 people killed. In Darfur, more 
than 200,000 people killed.
    Then you have the issue of the Kordofan in the south where 
the government--the regime, as it was mentioned several times, 
is conducting air raids. This is a military activity against a 
civilian population, not just against the SPLM in that area.
    The regime is also engaged in a third ethnic confrontation 
with the Nubians in the north both on the political and on the 
cultural fronts. What we see coming in all these four ethnic 
conflicts is the fact that the regime is denying the African 
identity of these communities.
    That is the bottom line. It is denying them their school, 
their languages, their political representation and as a result 
you have a rebellion, as was the case with South Sudan.
    Last but not least, the Beja area, which is across eastern 
Sudan including Port Sudan, this is a community--an African 
community--which also is suppressed by this regime. And the 
fifth group basically is located in between South Sudan and 
northern Sudan. Map number four would show that. It is the area 
of Abyei.
    We do know that it is about oil and petrol and political 
control of this area but there is a population and that 
population, as you just said in your statement, has not been 
consulted yet about its future, as South Sudan has been 
consulted before.
    So one aspect that U.S. foreign policy needs to address is 
to put pressure on the Sudan-Khartoum regime to recognize the 
basic rights of these four or five ethnic African communities 
in Sudan, and if need be this issue, as I recommend, should go 
to the United Nations.
    This is an issue that is very similar to what has happened 
in East Timor, to what has happened in Kosovo and to what has 
happened, as you just mentioned, in Northern Ireland.
    B, inside the north Arab Muslim country, as map number two 
shows, you have an actual opposition to the Khartoum regime. So 
it is not just an issue of ethnicity, of Arab versus non-Arab.
    Inside the Arab Muslim Sunni area of northern Sudan you 
have a civil society rising. You have something similar to what 
happened in Tunisia or in Egypt or in Syria. People are 
opposing the Bashir regime--not just that he has been 
responsible for genocide against African neighbors and co-
citizens but because it is suppressing them. This is something 
that also should be added to all U.S. foreign policy thinking 
and policy about Sudan.
    There are two more crises that the north is generating--the 
northern regime. One, a constant support by the Bashir regime 
to jihadist organizations. Bases are being established there.
    Our intelligence and security committees in Congress should 
request more reports from our intelligence agencies about the 
backing that the Bashir regime has been supplying, has been 
bringing not just to jihadi organizations including Hamas, 
which is on our list of states--of organizations that are 
terrorists.
    Last but not least, what is very worrisome, as we show in 
map number eight, is the rise of Iranian military activities on 
the eastern coast of Sudan on the Red Sea.
    We now know that Iranian military presence in Port Sudan 
and the regions around Port Sudan is now facilitated by that 
regime. That regime is engaged in five ethnic conflicts, 
suppressing its own community, backing Hamas and other jihadist 
organizations, and now opening its own coast and ports to 
Iranian facilities.
    These should be the basis of our policy with regard to that 
regime, with regard to South Sudan, if I may. South Sudan is a 
drama that should not exist.
    The way we are handling it, as if this is a conflict--this 
is a conflict that's going to last for many years and we are 
trying to look at the humanitarian issue. This is a conflict 
that should have not even existed.
    We should have reacted to it in a very firm way. The loss 
of South Sudan would be the loss of the latest independent 
country in the world, would be the loss of a very promising 
African democracy, would be the loss of an ally which has huge 
experience in fighting terrorism.
    These forces, the SPLM, SPLA, despite the fight that they 
have now inside Southern Sudan, are the most experienced 
African forces on the continent against jihadi forces for the 
last 30 years.
    We will be losing this experience, and if that goes down 
then many--as you just mentioned, Mr. Chairman, many jihadi 
organizations in central Africa, in Somalia and other parts of 
the Sahel will be converging to Sudan to create those bases.
    So in my recommendations, which I am going to go over very 
quickly and you have mentioned one, I would strongly recommend 
that the President of the United States, President Obama, will 
address in public the issue of Sudan.
    He has visited the continent of Africa twice. He has 
delivered speeches in Cairo and other places. He should, in my 
view, modestly, deliver a speech and the reason is simple.
    We need high energy. People in South Sudan, those 
commanders on the ground, needs to have a very high important 
personality that would address them from Washington that would 
ask them to cease fire.
    This is a civil war, and in civil wars they are not going 
to listen to diplomats. They are going to listen to the highest 
personality, especially Mr. Obama. President Obama is well seen 
in Africa, well seen in the Sudan.
    He should be, as was mentioned by Congressman Wolf, have 
with him a delegation and leaders such as President Bush, who 
had in the past been working on the issue.
    Leaders like yourself, like the madam and others should be 
present so that the psychological message being sent to the 
South Sudan, not just to the President and the former Vice 
President but to the fighting forces on the ground--the 
commanders, when they will see that the President of the United 
States is addressing them.
    As you just mentioned, inviting representatives to 
Washington, we had the Israelis and the Palestinians. We had 
the Irish here. We had many other people. Let us take them to 
Camp David or bring them to the Congress and put that 
psychological pressure so that they will understand it is a 
U.S. priority.
    On Sudan, we are dealing with not one, but four or five 
Darfurs. What I would recommend at this point in time is that 
the President, when addressing the issue of South Sudan, would 
call on Khartoum, would call on Mr. Bashir and tell him you are 
under international indictment and you are responsible for the 
security and the rights of these four African communities in 
Sudan.
    Second, we need to invite to Washington representatives of 
the Beja, of the Nubians, of the Darfuris, and of the Kordofan, 
and other areas in northern Sudan so that the American public 
will understand what are their claims and what are their 
difficulties.
    When we have issues of conflict, especially ethnic 
conflict, it is very important that our foreign policy would be 
backed by the public. Lawmakers represent the public and the 
public needs to see them.
    That is why I would recommend as well that there will be 
another hearing in this committee and other committees where 
representatives from Sudanese NGOs will be here at this table 
and then making those statements.
    Beja people, American citizens, and people from Darfur and 
people from the Nubians will be actually addressing the 
American public and explaining their situation.
    Last but not least, we are funding a significant amount of 
aid and help to U.S. media. We have Voice of America. We have 
Radio Free Europe.
    It is time now that we would instruct Voice of America to 
start addressing the issue of Sudan using ethnic languages.
    If we want to have any leverage by sending our diplomats, 
fine. The diplomats are going to be meeting few people. We need 
to speak with their languages, and we have significant budgets.
    We have significant bureaucracies. You don't need to add 
any additional budget. Just giving instructions to VOA to start 
addressing these ethnic communities with their language.
    Thank you very much for giving me that opportunity.
    [The prepared statement of Mr. Phares follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Dr. Phares.
    Mr. Akwei.

STATEMENT OF MR. ADOTEI AKWEI, MANAGING DIRECTOR FOR GOVERNMENT 
              RELATIONS, AMNESTY INTERNATIONAL USA

    Mr. Akwei. Thank you, Chairman Smith, Ranking Member Bass. 
It is an honor to be testifying before you today. Your long 
record of engagement in Africa continues to be an inspiration 
and we look forward to working with you going forward.
    I am going to go straight to my conclusions and to the 
recommendations, given the very strong recommendations from my 
peers on the panel. I think these hearings, first of all, come 
at a critically important time.
    Maybe they bring into focus the crisis in South Sudan but 
they certainly should serve to remind Washington of its long 
history of engagement and the investment that it has made in 
Sudan and in South Sudan and also on the issues of promoting 
human rights and freedom for the people in South Sudan.
    The U.S. has been heavily engaged in Sudan since the 1970s, 
first providing support to the government in Khartoum and then 
in 1989 leading the international effort to end the protracted 
bloody civil war between the SPLM and the Government of Sudan.
    The United States also has responded to different 
humanitarian crises that have cost millions of lives. The U.S. 
played a key role in brokering the end of the civil war and 
orchestrating the process that resulted in the secession of 
South Sudan, its birth as an independent nation and has been 
the single largest donor to the new government in addition to 
providing support to a government formed from an armed group 
that had been fighting over 20 years.
    In other words, the near collapse of the new government in 
Juba represents not only another tragedy for the people of 
South Sudan unless resolved in a manner that leads to sustained 
improved governance and respect for human rights, it sends a 
chilling message for the entire continent and, arguably, here 
in Washington. This is why the peace talks in Addis, as John 
mentioned, must not be conducted in a business as usual manner, 
leaving the shaping of the cease fire, its implementation and 
hopefully ensuring its longevity only to the Government of 
Sudan and the forces of former Vice President Riek Machar and 
their supporters.
    The manner in which a peace agreement is reached will be as 
important as the agreement itself because it will help cement 
the legitimate and critical role of civil society in affairs of 
their country and include historically marginalized 
populations.
    It will also underscore the concept of accountability for 
governments and the people in those governments to meet the 
ceasefire and to live and abide by it.
    So for Amnesty International, it is important that policy 
makers in Washington deliberate on the steps going forward and 
that there is clarity on the nature of the issues that both 
countries face individually that are similar but that are in 
different context, and those where seeking to address an issue 
in one country would benefit from better coordination or 
efforts to address that with the other.
    In this category, we would include improving the delivery 
of humanitarian assistance and expanding and robustly informing 
the U.N. arms embargo which, Chairman Smith, you referred to.
    While over 800,000 people have been displaced by the 
current crisis in South Sudan with over 700,000 of those 
internally displaced and either seeking shelter in U.N. bases 
or staying in rural open settings with little to no access to 
food or water, sanitation or shelter, in Sudan the delivery of 
essential humanitarian assistance to civilian populations in 
conflict-affected areas has been severely hindered due to 
government restrictions and widespread insecurity.
    The United States and the international community must 
prioritize getting the Governments of Sudan and South Sudan to 
facilitate the unrestricted work of humanitarian organizations.
    This includes removing obstacles to their operations, 
working to ensure the safety of staff delivering humanitarian 
assistance, ensuring access to at-risk communities, and 
ensuring the safety and protection of refugees and internally 
displaced.
    Second, the destructive role of the glut of small arms in 
both South Sudan and Sudan has contributed to conflicts, loss 
of life and destruction of livelihoods.
    This is despite the U.N. Security Council's imposed arms 
embargo on Darfur. We all know that there has been compelling 
evidence that arms have been and continue to be used to commit 
serious violations of international humanitarian and human 
rights law in Darfur and other parts of Sudan.
    As such, the U.N. Security Council must immediately expand 
the current U.N. arms embargo to cover the whole of Sudan in 
order to stop military and related supplies reaching all 
parties of the conflict in Darfur.
    The flow of small arms to the region has not stopped and 
the civilian populations continue to suffer the consequences. 
Reducing the availability of these weapons will be critical to 
helping curb abuses in Darfur, Blue Nile and southern Kordofan 
and will be essential for conducting effective DDR processes in 
South Sudan where abuses carried out by soldiers and armed 
civilians in the last few months have underscored the dangers 
of unrestricted easy access to weapons.
    However, as these bilateral challenges must be taken up, 
there must be continued focus on the human rights challenges 
inside each of these countries. In Sudan, the United States 
must work with the international community to immediately cease 
all attacks in violation of international humanitarian law and 
human rights in Darfur, southern Kordofan, and Blue Nile, 
including deliberate attacks on civilians and indiscriminate 
aerial bombardments in civilian areas.
    The United States must also push the Sudanese Government to 
promptly, independently and impartially investigate all 
allegations of attacks against civilians by members of the 
Sudanese paramilitary forces in line with the requirements of 
international law, standards of fair trial, and to ensure that 
perpetrators are held to account.
    The Government of Sudan must comply with the arms embargo 
in Darfur including stopping all offensive military flights and 
seeking prior authorization with the Security Council sanctions 
committee to move military equipment to Darfur or into Darfur.
    And the United States must also express concern over the 
ongoing restrictions on basic civil and political rights and 
the continued harassment of critics of the government including 
through the practice of arbitrary detention, torture, ill 
treatment, restrictions on freedom of expression, association, 
and assembly.
    And I would point out that the civil society groups in 
Sudan have issued statements calling for a comprehensive 
response and approach to the situation in the country. We must 
build on that, as my colleague has just said. That is going to 
be the critical actor and agent to sustain reform inside Sudan.
    In South Sudan, I think we have all reached fairly easy 
agreement that the consensus is that the cease fire and 
implementing an effective cease fire is the priority.
    We must ensure that the peace negotiations and the 
establishment of the AU Commission of Inquiry prioritize 
accountability, as well as reconciliation, ensuring that those 
responsible for abuses during the conflict are brought to 
justice and ending the cycle of impunity that John referred to.
    The negotiations in Addis have to be opened up. 
Representatives of all stakeholders--women, civil society 
groups, and other marginalized communities--must be allowed to 
participate and, as John said, we must work to facilitate that.
    If there is going to be a lasting peace, there has got to 
be broader ownership, and the protection of human rights in the 
country is helped and strengthened by all of their 
involvements.
    I will thank you there.
    [The prepared statement of Mr. Akwei follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Akwei.
    We do have votes again occurring so I will just ask two 
questions and then yield to my colleague.
    You mentioned, Mr. Akwei, that hundreds of activists were 
arrested in September 2013 and we haven't, I don't think, 
brought enough attention to what has become of them.
    Has there been access by NGOs or other humanitarian groups 
or the Red Crescent, the Red Cross, anyone, to any of those 
people? Are they being tortured, do we know?
    Mr. Akwei. No, and in fact, unfortunately the history of 
the country is that people who are arrested in Sudan are very 
much at risk of ill treatment if not torture. So this has to be 
prioritized in terms of not letting the spotlight completely 
drop away from what is going on.
    Mr. Smith. No, I appreciate you underscoring it in your 
testimony.
    Let me ask you, Mr. Prendergast, you talked about the 
diplomatic surge very diplomatically and, I believe, very 
sincerely. You talk about how, you know, a very capable Special 
Envoy could only do so much. It has to be all hands on deck.
    This has to happen now. It seems to me that we are in an 
absolutely urgent situation. Which way is this trending? I 
mean, can this get significantly worse in days, weeks, and 
months if something is not done that would really signal U.S. 
full, all-in, type engagement?
    Mr. Prendergast. Yes. To address both of those points, on 
the one hand, I do think it could get worse. I think it could 
get much worse.
    I think if there isn't a stoppage with a real cessation of 
hostilities that is respected that it is really about the 
nature of the attacks.
    So if there were just two armies battling each other, like 
we saw in Ethiopia and Eritrea--they fought each other, 
civilian damage was not insignificant but minimal and the 
losses were to the armed forces. That is one thing.
    It is not what is happening here. It is not what happened 
when they fought the war--the North-South war when there was 
the intra-south war from '91 to '96.
    They attack each other's communities and when I went into 
some of the neighborhoods that had been where soldiers from the 
government had gone house to house looking for particular 
people from a particular ethnic group, the Nuer, and pulling 
them out of houses, executing them, I mean, this reverberates 
throughout the country.
    And then I just--we went up to Bor after that and in that 
place the rebel groups led by, sadly, Nuer--young Nuer people 
who were recruited into these militias, these paramilitary 
forces principally called the White Army, and the kinds of 
atrocities they committed there--going into the hospital 
killing everybody in the hospital, going into the church 
compound killing the female pastors, raping and killing--like 
very, very terrible atrocities that, again, send major signals 
to each other's communities.
    So you have this war between a government and an opposition 
but you also have--underneath that is a developing problem 
between Nuer and Dinka and that is--you know, these are 
politicians using ethnicity as a mobilizing force.
    And so that is what worries me about things getting worse. 
So yes, I do believe we need to do more than what we are doing 
now. What we are doing now in standard diplomatic terms makes 
sense. But this isn't a standard diplomatic problem.
    Mr. Smith. Now, is it time for the President to call Salva 
Kiir and Machar?
    Mr. Prendergast. Yes. There are gradations of things. He 
should definitely be engaged. We need additional firepower, 
diplomatically, to go out.
    I think all these ideas are good and let us see if 
President Bush or Condoleezza Rice or Hillary Clinton or 
Madeleine Albright or somebody of a significant stature who has 
a history of doing things positively in Sudan to be deployed 
out there, to bring a message, to push forward for the process 
to begin in earnest.
    Mr. Smith. Ms. Bass.
    Ms. Bass. Yes. I am sorry that we will have to go because I 
have at least 100 questions. But just real quickly--one, I just 
really appreciate, you know, the quality of your comments and 
recommendations and all, and you mentioned that inside of South 
Sudan that there would be a call from folks for a comprehensive 
response and I am wondering with what Mr. Prendergast said if 
that is an example.
    So in other words, I love the term diplomatic surge. You 
know, if we really went in with full force would that be 
responsive to what you feel people are calling, and then also, 
you know, with you, Dr. Phares, you know, you described all of 
the different struggles that are taking place within Sudan. How 
do you feel that type of response could help?
    Mr. Phares. For Southern Sudan, may I recommend a shock 
treatment at this point in time. As my colleagues have 
mentioned, we are way beyond the traditional confrontation on 
our border line.
    And the shock treatment--I am going to repeat one more 
time--the President of the United States has immense weight in 
the eyes not just of the two leaders on the ground but other 
commanders on the ground.
    They look at him as he is the head of the free world, and 
if he can include in his speech directed to them I will make 
you responsible if you continue to kill civilians, and then we 
could have our diplomats, former Presidents, so on and so--we 
need that shock treatment.
    And number two, we need to invite representatives. I am not 
sure at what level but bring your representatives here. Sending 
that message--that image back by TV into South Sudan will 
create an energy that is different.
    Because now people are killing people. They think that the 
international community and United States are just sending one 
diplomat.
    Mr. Akwei. I would think that having that kind of political 
representation that speaks directly to these civil society 
groups would be one of the most powerful things we could do 
because it would send a statement to the ``leaders'' of the 
major armed forces that these groups matter, these groups have 
to be listened to, these groups have a legitimate stake in the 
future of the country and you are not the only ones driving the 
future.
    Mr. Prendergast. And one footnote to that is part of what 
you surge diplomatically for is to ensure those voices are at 
the table and heard but you also want to surge because in South 
Sudan itself the trend line in the year before the conflict 
started was a closing of space.
    Freedom of speech, freedom of assembly--all those were 
under siege and that space needs to be reopened for people to 
have the confidence that anything that is agreed to in Addis 
Ababa can be brought back to the country and people will have a 
chance to really build this country with and have a free and 
fair electoral process that will allow for everyone to be able 
to participate in an equal way.
    So I think that is what we are really missing here is the 
pressure--the high-level pressure that says this matters to us 
deeply and in the absence of that inclusivity and those rights 
how can you build this country, and you won't get our help 
because that means it is going the wrong way if you are not 
doing those things.
    Mr. Smith. I want to thank our distinguished witnesses. 
Thank you for your expertise, your very significant 
recommendations we will follow up on.
    I hope the administration takes to heart all that you have 
said as well.
    And without any further ado, the hearing is adjourned.
    [Whereupon, at 4:04 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <careof><Rx><brit-pound>t

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
